No. 19-511
IN THE SUPREME COURT OF THE UNITED STATES
FACEBOOK, INC.,
Petitioner,

v.
NOAH DUGUID, ET AL.,

Respondents.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Brief of Respondent Noah Duguid contains 12,998 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
Executed on October 16, 2020.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

